Department of Homeland Security
   Ofﬁce of Inspector General

             Recommendations to Improve the Coast 

                Guard’s System for Adjudicating 

              Suspension and Revocation Matters 





OIG-10-107                                       August 2010
                                                             Office ofInspector General

                                                             U.S. Department of Homeland Security
                                                             Washington, DC 20528




                                                             Homeland
                                                             Security
                            AUG 1 3 2010


                                          Preface

The Department of Homeland Security (DHS) Office of Inspector General (OIG) was
established by the Homeland Security Act of2002 (Public Law 107-296) by amendment
to the Inspector General Act of 1978. This is one of a series of audit, inspection, and
special reports prepared as part of our oversight responsibilities to promote economy,
efficiency, and effectiveness within the department.

This report addresses certain issues related to the Coast Guard's system for adjudicating
suspension and revocation matters. It is based on interviews with current and former
Coast Guard employees and officials, interviews with representatives of the mariner
community, direct observations, and a review of applicable documents.

The recommendations herein have been developed to the best knowledge available to our
office, and have been discussed in draft with those responsible for implementation. We
trust this report will result in more effective, efficient, and economical operations. We
express our appreciation to all of those who contributed to the preparation of this report.

                                     £~~.~
                                      Richard L. Skinner
                                      Inspector General
Table of Contents
 


Executive Summary ............................................................................................................ 1 


Background ......................................................................................................................... 2 


Results of Review ............................................................................................................... 4
 


           The ALJ Program Needs to Review and Update Certain Policies and 

              Procedures......................................................................................................... 5 

           Recommendations................................................................................................... 9 

           Management Comments and OIG Analysis ........................................................... 9 


           The S&R Program Needs to Improve Training and Provide Consistent and 

              Effective Legal Support to Investigating Officers .......................................... 12 

           Recommendations................................................................................................. 14 

           Management Comments and OIG Analysis ......................................................... 15 


           The Coast Guard Needs to Issue Commandant Decisions on Appeal in a 

              Timely Manner and Make the Decisions More Accessible to the Public....... 16 

           Recommendations................................................................................................. 18 

           Management Comments and OIG Analysis ......................................................... 18 


           The Coast Guard Needs to Develop Formal Protocols to Prevent Improper 

              Contacts Among Personnel in the ALJ Program, the Office of Maritime 

              and International Law, and the Office of Investigations and Analysis........... 20 

           Recommendations................................................................................................. 23 

           Management Comments and OIG Analysis ......................................................... 23 



Appendices
     Appendix A: Purpose, Scope, and Methodology.......................................................25 

     Appendix B: Management Response to Draft...........................................................27 

     Appendix C: Major Contributors to this Report........................................................32 

     Appendix D:...Report Distribution ..............................Error! Bookmark not defined.
 

Abbreviations
  ALJ           Administrative Law Judge
  ALJIPP        Administrative Law Judge Internal Procedures and Practices
  APA           Administrative Procedure Act
  CDOA(s)       Commandant Decision(s) on Appeal
  DHS           Department of Homeland Security
  MSPB          Merit Systems Protection Board
  OIG           Office of Inspector General
  S&R           Suspension and Revocation
OIG
 

Department of Homeland Security
Office of Inspector General

Executive Summary
                         In October 2008, the United States Coast Guard requested that we
                         assess the validity of a former Administrative Law Judge’s
                         allegations of bias and misconduct in the Coast Guard’s
                         Administrative Law Judge program, particularly in connection
                         with the adjudication of cases involving the suspension and
                         revocation of merchant mariner credentials. In January 2009, we
                         initiated a review to determine whether the Chief Administrative
                         Law Judge directed subordinate Administrative Law Judges to rule
                         in favor of the Coast Guard and whether the Chief Administrative
                         Law Judge’s senior staff engaged in an improper, ex parte meeting
                         with Coast Guard attorneys and investigating officers. Our report,
                         Allegations of Misconduct within the Coast Guard’s
                         Administrative Law Judge Program (OIG-10-108), addressed the
                         merits of the allegations. It did not contain any recommendations.

                         While assessing the allegations, we reviewed the Administrative
                         Law Judge program and the Coast Guard’s suspension and
                         revocation administrative proceedings, and noted programmatic
                         issues not directly related to the allegations that warranted
                         management’s attention. The Administrative Law Judge program
                         needs to review and update certain policies and procedures
                         regarding the training, investigation, and discipline of
                         Administrative Law Judges. The Coast Guard should also train
                         and provide adequate legal support to its investigating officers.
                         Commandant Decisions on Appeal need to be issued more timely
                         and be more accessible to the public. Finally, the Coast Guard
                         should establish guidelines governing interaction between staff
                         handling prosecutorial and adjudicative functions. We are making
                         11 recommendations to address these issues and to improve the
                         effectiveness, integrity, and efficiency of both the ALJ program
                         and suspension and revocation administrative proceedings. In its
                         response to our draft report, the Coast Guard concurred with each
                         recommendation.




Recommendations to Improve the Coast Guard’s System for Adjudicating Suspension and Revocation Matters

                                               Page 1
Background
                             The Coast Guard’s Administrative Law Judge (ALJ) program is
                             governed by the Administrative Procedure Act (APA) (5 U.S.C. §
                             551 et seq.) and Coast Guard regulations. Typically, Coast Guard
                             administrative proceedings focus on suspension and revocation
                             (S&R) of merchant mariner credentials (46 U.S.C. Chapter 77);
                             and assessment of class II civil penalties in accordance with
                             provisions of the Federal Water Pollution Control Act (33 U.S.C.
                             § 1321(b)(6)) and the Comprehensive Environmental Response,
                             Compensation and Liability Act (42 U.S.C. § 9609(b)).1 The
                             purpose of the program is to provide a low-cost and timely method
                             of helping to maintain safety in maritime operations. In general,
                             the Coast Guard’s administrative proceedings are intended to be
                             more informal, less expensive, and faster than regular court
                             proceedings, while still providing fundamental due process to
                             respondents. Accordingly, S&R proceedings are designed so that
                             neither the Coast Guard nor the respondent needs legal
                             representation to resolve the matters in dispute. Historically, S&R
                             and class II civil penalty hearings represent only a very small
                             portion of the Coast Guard’s mission-related activities.

                             Pursuant to the APA and Coast Guard regulations, the Chief ALJ
                             assigns other ALJs to preside over administrative proceedings.2
                             An ALJ must be an impartial finder of fact, free from the influence
                             of the Coast Guard or any other person when hearing and deciding
                             Coast Guard cases.3 Further, the respondent must be given notice
                             of the charges against him or her and the opportunity to rebut those
                             charges in a hearing before an impartial ALJ. When the
                             administrative proceeding is concluded and the ALJ renders a
                             decision, that decision becomes the decision of the agency unless
                             the decision is appealed.4 Either the respondent or Coast Guard
                             investigating officers may appeal the ALJ’s decision by filing a
                             notice of appeal with the ALJ program’s docketing center within
                             30 days of the issuance of the decision, and subsequently filing an
                             appellate brief with the Coast Guard’s Commandant within 60
                             days of the issuance of the decision.5

                             The Coast Guard’s Office of Maritime and International Law
                             handles the appeal of an ALJ’s initial decision to the Commandant.

1
  33 C.F.R. Part 20. 

2
  33 C.F.R. § 20.201. See also 5 U.S.C. § 3105. 

3
  33 C.F.R. § 20.206. 

4
  5 U.S.C. § 557(b).
 

5
  33 C.F.R. §§ 20.1001 and 20.1003. 


    Recommendations to Improve the Coast Guard’s System for Adjudicating Suspension and Revocation Matters


                                                    Page 2

                             It reviews the record of the proceedings along with the appellate
                             briefs and drafts the Commandant’s Decision on Appeal (CDOA)
                             for review and signature by the Vice Commandant, who issues the
                             decisions on the Commandant’s behalf. If an ALJ’s decision has
                             not been appealed, the Commandant may still review it on his own
                             initiative if there is a finding that the charge was proved.6 A
                             respondent who disagrees with the Commandant’s decision may
                             appeal the decision to the National Transportation Safety Board
                             (NTSB).7 An appeal from the NTSB can be made to an
                             appropriate federal court of appeal.8

                             The ALJ program, which is funded by but operates independently
                             of the Coast Guard, has had three Chief ALJs since its inception in
                             1948. The Chief ALJ has offices at Coast Guard headquarters in
                             Washington, DC, and at the program’s docketing center in
                             Baltimore, MD. The program operates field offices in Alameda,
                             CA; Houston, TX; New Orleans, LA; New York, NY; Houston,
                             TX; and Seattle, WA. One ALJ is assigned to Baltimore. The
                             Director of Judicial Administration, also staffed at Coast Guard
                             headquarters, serves as attorney advisor to the Chief ALJ and has
                             broad management responsibility for the ALJ program.

                             Day-to-day management of the ALJ program occurs at the
                             docketing center. The docketing center, created in 1997, is staffed
                             by a senior attorney, attorney advisors, paralegal specialists, and
                             administrative assistants. Paralegal specialists manage the case
                             docket and all filings associated with Coast Guard administrative
                             proceedings. In addition, the staff helps parties file documents,
                             maintains a system for tracking and monitoring the status of
                             outgoing and archived files, issues ALJ assignments and notices on
                             behalf of the Chief ALJ, and answers inquiries from parties and the
                             public. The attorney advisors provide legal support and advice to
                             ALJs upon request that have questions about rules, regulations,
                             legal, and policy issues. The docketing center provides an initial
                             orientation for ALJs; it does not provide any formal training for
                             new ALJs. The docketing center assists the Chief ALJ and
                             Director of Judicial Administration in carrying out periodic ALJ
                             conferences that may include legal and procedural updates.
                             Since 1999, the docketing center has assigned uncontested cases to
                             ALJs on a rotational basis. Contested cases are generally assigned
                             based on the location where the Coast Guard filed the complaint,
                             i.e., whether a case is filed within an ALJ’s area of geographic

6
  46 C.F.R. § 5.801.
 

7
  46 C.F.R. § 5.713; 49 C.F.R. Part 825; 49 U.S.C. § 1133(3). 

8
  49 U.S.C. § 1153
 


    Recommendations to Improve the Coast Guard’s System for Adjudicating Suspension and Revocation Matters


                                                   Page 3

                             responsibility. The docketing center also considers other factors in
                             the case assignment process, such as whether the ALJ who would
                             normally be assigned the matter has a particularly heavy workload
                             or is scheduled for leave.

                             The Coast Guard’s Office of Investigations and Analysis is
                             charged with, among other things, policing the Nation’s waterways
                             and helping to ensure safety at sea. Local investigating officers,
                             who are generally not attorneys, represent the Coast Guard in S&R
                             proceedings. Investigating officers are often responsible for
                             investigating the charges against a mariner, drafting and filing the
                             resulting complaint, and then prosecuting the matter before the
                             assigned ALJ.9 Typically, investigating officers have no prior
                             legal background and serve for only a few years before being
                             rotated into a new position. Investigating officers have access to
                             regional Coast Guard attorneys to assist them in the S&R
                             proceedings when necessary, but as a practical matter,
                             investigating officers rarely interact with the Coast Guard’s
                             attorneys. Thus, the Coast Guard often is not represented by
                             attorneys in contested administrative hearings.


Results of Review
                             Our report, Allegations of Misconduct Within the Coast Guard’s
                             Administrative Law Judge Program (OIG-10-108), addressed the
                             merits of several allegations by a former Coast Guard ALJ. While
                             conducting our review, we identified certain actions the Coast
                             Guard can take to improve the efficiency and effectiveness of its
                             S&R proceedings, both at the initial hearing level and when on
                             appeal. Specifically, both the ALJ program and the Office of
                             Maritime and International Law, which handles appeals to the
                             Commandant, need to update and formalize procedures and
                             policies to increase transparency and to avoid the appearance of
                             impropriety. In addition, the Coast Guard should improve its
                             training of its investigating officers. Finally, the Coast Guard must
                             take steps to isolate staff handling prosecutorial functions from
                             staff handling adjudicative functions for administrative
                             proceedings. We are making 11 recommendations to improve the
                             efficiency and effectiveness of the Coast Guard’s administrative
                             proceedings.




9
    “Prosecuting” an S&R proceeding is an administrative process, not a criminal process.

    Recommendations to Improve the Coast Guard’s System for Adjudicating Suspension and Revocation Matters


                                                   Page 4

       The ALJ Program Needs to Review and Update Certain Policies
       and Procedures
                In the past few decades, the Coast Guard’s ALJ program has grown from a
                very small network of ALJs and support staff to a larger program that
                hears cases with an increasing level of complexity on behalf of multiple
                agencies. The program has also experienced turnover owing to the
                retirement of many more experienced ALJs. As a result, the Coast Guard
                should re-evaluate how it administers the program. Specifically, the
                program needs to review, update, and, if necessary, formalize its current
                policies and procedures, including but not limited to (1) developing a
                formal training program for ALJs; (2) developing formal procedures for
                investigating allegations of misconduct against an ALJ; (3) developing
                written guidance for the Chief ALJ to use when disciplining an ALJ; and
                (4) clarifying the extent of the Chief ALJ’s authority to issue policy
                guidance to subordinate ALJs and the means by which the Chief ALJ may
                do so.

                         Training Program for Administrative Law Judges

                         ALJ program officials maintain that because the Coast Guard hires
                         only experienced ALJs, there is no need to conduct formal training
                         for ALJs new to its S&R system. The officials believe that the
                         laws and regulations governing S&R procedures are
                         straightforward and easy to understand, and an experienced ALJ
                         should already possess the skills to interpret the laws and to
                         preside over an S&R hearing. Consequently, the ALJ program
                         does not have a formal training program. It provides training in an
                         ad hoc, informal manner upon request.

                         However, S&R hearings are usually adversarial and neither party is
                         usually represented by counsel. Over the past few years, the Coast
                         Guard has employed some ALJs who had no prior maritime law
                         experience or who were not familiar with the format of S&R
                         hearings. Most Coast Guard ALJs were hired from the Social
                         Security Administration’s ALJ program, where the proceedings are
                         rarely adversarial.

                         Most of the ALJs believe that formal training is not necessary.
                         In addition, many experienced Coast Guard ALJs assert that
                         because both the Coast Guard and the respondent often proceed
                         without legal representation, the ALJ program expects that a Coast
                         Guard ALJ has a heightened responsibility to develop the record
                         and help the parties to the proceeding understand the law. This
                         expectation according to the ABA Model Code of Judicial Conduct

Recommendations to Improve the Coast Guard’s System for Adjudicating Suspension and Revocation Matters


                                               Page 5

                           (Model Code) which the ALJ program requires its ALJs to follow.
                           The Model Code allows judges to make “reasonable
                           accommodations” to ensure that unrepresented litigants are fairly
                           heard.10 During the informal orientation of new Coast Guard
                           ALJs, the Chief ALJ’s senior staff explains that an ALJ must
                           compensate for the fact that the parties in an S&R proceeding are
                           not required to have legal representation and, therefore, might not
                           be able to present their case effectively. Coast Guard ALJs
                           explained that they ask the parties questions to help develop the
                           record, but they must not become an advocate for either party.
                           However, the ALJ program does not provide the ALJs with any
                           guidance regarding the extent to which they are expected to assist
                           the parties in establishing facts on the record or in identifying the
                           relevant law.

                           The ALJ program would benefit from a formal training curriculum
                           that provides instruction for new Coast Guard ALJs on the basics
                           of maritime law, the purpose and format of S&R hearings, and the
                           context of the hearings within the overall operation of the agency.
                           In addition, to the extent that Coast Guard ALJs are expected to
                           assist unrepresented parties, they should receive written guidance
                           on the best way to provide this assistance in an unbiased and
                           impartial manner.

                           Investigating Allegations of Misconduct

                           The Chief ALJ is tasked with investigating allegations of
                           misconduct levied against ALJs and, although they are rare, the
                           ALJ program does not have guidance to assist the Chief ALJ in
                           performing an investigation. As a result, the Chief ALJ has
                           conducted investigations of ALJs in an informal, ad hoc manner.
                           In one investigation of an ALJ, the Chief ALJ delegated
                           responsibility for assessing the initial complaints against the ALJ
                           to senior staff. After an initial meeting to discuss the complaints,
                           the Chief ALJ sent members of his senior staff to meet with the
                           complainants, gather information about the complaints, and report
                           their findings back to him. Subsequently, and without informing
                           the Chief ALJ, a senior staff member who attended this meeting
                           informally discussed the contents of the meeting with the ALJ
                           under investigation. This could have jeopardized the investigation.
                           Furthermore, the absence of formal guidance with respect to the
                           investigation could have caused the ALJ program staff to dismiss
                           the complaints against this ALJ without ascertaining their validity.
                           The creation of formal guidelines or an investigating framework

10
     Rule 2.2, Comment 4, American Bar Association Model Code of Judicial Conduct (2007).

 Recommendations to Improve the Coast Guard’s System for Adjudicating Suspension and Revocation Matters


                                                Page 6

                         would enable the Chief ALJ to: (1) provide the ALJs under
                         investigation with an opportunity to address the allegations lodged
                         against them where appropriate; (2) maintain an accurate record of
                         the fact-finding and decision-making for potential use in a
                         disciplinary action; or (3) ensure that any and all allegations of
                         misconduct are handled consistently and in accordance with an
                         accepted set of guidelines. Moreover, formal guidance can provide
                         advance notice to personnel about the Chief ALJ’s authority to
                         investigate allegations against an ALJ and discipline the ALJ
                         accordingly.

                         Disciplining an Administrative Law Judge

                         When the Chief ALJ determines that an ALJ has engaged in
                         misconduct, the Chief ALJ has considerable discretion. He may
                         choose to file a complaint against an ALJ before the Merit Systems
                         Protection Board (MSPB) or he may choose not to initiate a formal
                         disciplinary action against the ALJ and handle the matter
                         informally. However, the ALJ program does not have any formal
                         guidance applicable to this decision making process. A formal
                         policy should address the rights and responsibilities of the Chief
                         ALJ in this context and the options available to him.

                         For example, one former Coast Guard ALJ had significant
                         performance and misconduct-related issues during that ALJ’s
                         tenure. However, this ALJ was only reprimanded informally. The
                         Chief ALJ could have filed a complaint against the ALJ to the
                         MSPB or formally documented some of the allegations of
                         misconduct against this ALJ. Guidelines would have helped the
                         Chief ALJ in the exercise of his discretion in this manner. The
                         ALJ program should develop guidelines for how one files a
                         complaint against an ALJ, and for what purposes, and for the Chief
                         ALJ to follow when deciding whether and how to investigate
                         complaints against an ALJ or take formal disciplinary action
                         against an ALJ. These guidelines should enable the Chief ALJ to
                         determine the propriety of an MSPB or other personnel-related
                         disciplinary action. Such policies and procedures can make the
                         factors that the Chief ALJ considers in his decision-making
                         process more transparent.

                         Authority of the Chief ALJ in Issuing Policy Guidance to the
                         ALJs

                         Pursuant to Coast Guard regulations and the Chief ALJ’s job
                         description, the Chief ALJ has the authority to issue policy
                         guidance to the other Coast Guard ALJs. Specifically, the Chief

Recommendations to Improve the Coast Guard’s System for Adjudicating Suspension and Revocation Matters


                                               Page 7

                           ALJ has the authority to ensure “general compliance of
                           subordinate ALJs’ decisions with agency rules and procedures,” to
                           ensure that the penalties that ALJs impose are generally consistent
                           and to develop and implement “policies and other guidance which
                           has usage throughout the agency-wide ALJ program.”11 In
                           addition, the Chief ALJ is tasked with training new and incumbent
                           ALJs,12 reviewing the ALJs’ decisions to ensure that they comply
                           with applicable law, and generally ensuring that the ALJs are
                           performing their duties competently.13

                           A former ALJ expressed concerns about how the Chief ALJ can
                           and should implement guidance and to what extent Coast Guard
                           ALJs are bound to follow such guidance. In the past, Chief ALJs
                           issued guidance through ALJ Internal Procedures and Practices
                           (ALJIPP). Judges were, and still are, required to follow all
                           guidance issued in an ALJIPP. However, the ALJ program has not
                           updated ALJIPPs on a regular basis, as the ALJIPPs have not been
                           revised for years. Today, ALJ program personnel and several
                           ALJs consider many ALJIPPs to be either obsolete or irrelevant.
                           The current Chief ALJ distributes policy guidance primarily
                           through policy memorandums rather than through ALJIPPs. He
                           also sends other guidance to the ALJs in the form of memoranda
                           that are not binding, such as legal updates and other information
                           useful to ALJs. As a result, personnel must distinguish whether
                           memorandums are either directive or instructive in nature. Failure
                           to make the correct distinctions may result in an ALJ confusing
                           non-binding guidance with binding policy.

                           The ALJ program should create a single source of definitive policy
                           guidance by reviewing its ALJIPPs and policy memorandums and
                           consolidating all that are still relevant and current into a manual for
                           ALJs. The ALJ program should clarify which ALJIPPs and policy
                           memoranda are out of date and should no longer be used. The ALJ
                           program should also state to what extent ALJs are required to
                           follow each ALJIPP or policy memorandum. Additionally, to the
                           extent practicable, the ALJ program should publish its policies on
                           its website to make the S&R process more transparent to the
                           public. Going forward, the ALJ program should develop a process
                           for distributing future policy guidance to ALJs that includes a
                           designated format for the guidance and a clear explanation of
                           whether and to what extent it binds the ALJs.


11
   Chief ALJ Job Description.
12
   46 C.F.R. § 1.01-20(c)(3).
13
   See 46 C.F.R. § 1.01-20(c)(4).

 Recommendations to Improve the Coast Guard’s System for Adjudicating Suspension and Revocation Matters


                                                Page 8

                         Recommendations
                         We recommend that the Chief Administrative Law Judge:

                         Recommendation 1: Evaluate current procedures for training
                         ALJs and create a formal training program.

                         Recommendation 2: Develop formal written procedures for
                         investigating allegations of misconduct against an ALJ.

                         Recommendation 3: Create formal guidelines for the Chief ALJ
                         to follow when deciding how or whether to discipline an ALJ.

                         Recommendation 4: Revoke any obsolete policy guidance and
                         consolidate current policy guidance into a manual.

                         Recommendation 5: Develop a standard format for the issuance
                         of policy guidance that establishes to what extent an ALJ is
                         required to follow the guidance.

                         Management Comments and OIG Analysis
                         USCG’s Comments to Recommendation 1:

                         The Coast Guard concurred with the recommendation. The Coast
                         Guard acknowledged that many of these areas of law are complex
                         and very specialized and many attorneys, even maritime attorneys,
                         may not have had much exposure to the intricacies of the law and
                         regulations. Currently, a copy of the ALJ Process Guide is
                         provided to all ALJs and is posted on the website,
                         Homeport.uscg.mil. The ALJ Program will create training aids
                         and checklists that are consistent with Coast Guard statutes,
                         regulations, Commandant Decisions on Appeal, and the
                         Administrative Procedures Act, all of which will supplement the
                         existing ALJ Process Guide.

                         The curriculum will include general legal issues arising in
                         administrative law practice and maritime law as enforced by the
                         Coast Guard. Specifically, this includes vessel manning
                         requirements, issuance of merchant mariner credentials, vessel
                         operating requirements, drug and alcohol testing and fundamental
                         navigation rules. The Coast Guard estimates completing new
                         training aids and checklists by the end of 2010.




Recommendations to Improve the Coast Guard’s System for Adjudicating Suspension and Revocation Matters

                                               Page 9
                         OIG Analysis:

                         We concur with Coast Guard’s response. Although our
                         recommendation is fairly broad, our results of review included two
                         paragraphs dealing with unrepresented parties. While the Coast
                         Guard addressed the matter of an ALJ’s maritime law experience,
                         it did not address expectations of an ALJ with respect to
                         unrepresented parties. The curriculum should include these
                         matters.

                         This recommendation is Resolved – Open.


                         USCG’s Comments to Recommendation 2:

                         The Coast Guard concurred with the recommendation. The ALJ
                         program will create formal written guidance for the
                         Chief ALJ to follow when investigating an ALJ. The ALJ
                         Program published procedures for filing a complaint against an
                         ALJ on Homeport (homeport.uscg.mil) and follows the Coast
                         Guard's Administrative Investigations Manual. The Coast Guard
                         will consider both when implementing this recommendation. The
                         Coast Guard estimates completing new written procedures by
                         Spring 2011.

                         OIG Analysis:

                         We concur with the Coast Guard’s response. Currently, the
                         homeport website includes a mailing address for complaints, but
                         does not explain the procedures the Coast Guard uses to investigate
                         those complaints. The Coast Guard responded that it will consider
                         its service-wide investigations manual as it creates formal written
                         guidance to address this recommendation. The investigation
                         manual is a comprehensive guide for administrative and formal
                         investigations that should provide a suitable foundation for ALJ-
                         specific procedures.

                         This recommendation is Resolved – Open.

                         USCG’s Comments to Recommendation 3:

                         The Coast Guard concurred with the recommendation. It pointed
                         out that other than a minor reprimand or minimal suspension, the
                         Chief ALJ does not directly discipline an ALJ, but can only


Recommendations to Improve the Coast Guard’s System for Adjudicating Suspension and Revocation Matters


                                              Page 10

                         recommend a sanction to the MSPB. The degree of discipline
                         (suspension or termination) is a matter for MSPB to decide. The
                         Coast Guard’s formal guidelines will address "whether"
                         an ALJ should be disciplined. The Coast Guard estimates
                         completing the guidelines by Spring 2011.

                         OIG Analysis:

                         We concur with the Coast Guard’s response. In its response, the
                         Coast Guard explained how the Chief ALJ has limited authority to
                         discipline and how he can only recommend a sanction to the
                         MSPB. Nevertheless, the Coast Guard also explained how it can
                         issue a minor reprimand or minimal suspension. We do not assert
                         that the Chief ALJ or Coast Guard can take action that is within the
                         authority of the MSPB. Instead, the Coast Guard should describe
                         the process and options available to the Chief ALJ when a series of
                         facts may lead to action against an ALJ. A minor reprimand or
                         suspension do not require MSPB action, but are still forms of
                         discipline and should be included in the guidelines. The process
                         could identify certain benchmarks or decision points during or at
                         the conclusion of an investigation. Those decisions could include
                         a minor reprimand, referral to the MSPB, or closure of the
                         investigation in appropriate circumstances.

                         This recommendation is Resolved – Open.

                         USCG’s Comments to Recommendation 4:

                         The Coast Guard concurred with the recommendation. The Coast
                         Guard commented that the ALJ program initiated this task in 2008
                         and it is partially complete. It cancelled the majority of obsolete
                         policy documents and guidelines in 2009. It will update,
                         consolidate, cancel, revoke or replace remaining policy documents
                         using the new method proposed for issuing new policy guidance.
                         The Coast Guard estimates completing this task by the end of
                         2010.

                         OIG Analysis:

                         We concur with the Coast Guard’s response. In its action plan, the
                         Coast Guard should update the OIG on its progress in updating
                         policies.

                         This recommendation is Resolved – Open.

                         USCG’s Comments to Recommendation 5:

Recommendations to Improve the Coast Guard’s System for Adjudicating Suspension and Revocation Matters

                                              Page 11
                         The Coast Guard concurred with the recommendation. It
                         commented that the ALJ program is already in the process of
                         developing a standard format for issuing of policy guidance to the
                         ALJ s and staff that is consistent with OMB Guidance Policy. The
                         Coast Guard estimates it will implement this recommendation by
                         the end of 2010.

                         OIG Analysis:

                         We concur with the Coast Guard’s response. In its response, the
                         Coast Guard did not distinguish between mandatory policy and
                         “guidance” but should make this distinction. For example, the ALJ
                         Program could define mandatory guidance/policy as matters
                         involving judicial administration, management, personal conduct,
                         and ethics. Each of these subjects may be within the Chief ALJ’s
                         discretion. It could distinguish such mandatory guidance or policy
                         from memoranda that provide legal updates and developments or
                         procedural guides which summarize the law. Most important:
                         when guidance from the Chief ALJ is never truly binding, and only
                         guidance by the Commandant is, then the Coast Guard should
                         make that fact clear.

                         This recommendation is Resolved – Open.


       The S&R Program Needs to Improve Training and Provide
       Consistent and Effective Legal Support to Investigating Officers
                In addition to executing the Coast Guard’s mission of policing the
                Nation’s waterways, some Coast Guard officers perform the temporary
                duty of investigating officers. Investigating officers draft and file
                complaints against mariners and represent the Coast Guard in S&R
                proceedings. Most investigating officers are not attorneys and may not
                receive sufficient formal training to navigate more complex regulations
                and proceedings adequately. Further, the investigating officers may not
                have sufficient legal support in situations where it would be useful or
                necessary, such as in complex cases or in cases wherein the respondent is
                represented by counsel. Moreover, because the investigating officers are
                rotated out of their positions after only a few years, very few have either
                the opportunity or the incentive to gain a high level of expertise in
                prosecuting S&R cases.

                In 2008, the Coast Guard established the Suspension and Revocation
                National Center of Expertise to alleviate some of these problems by,

Recommendations to Improve the Coast Guard’s System for Adjudicating Suspension and Revocation Matters


                                              Page 12

                among other methods, providing investigating officers with training and
                legal support. Given the scope of our review, we did not examine whether
                the Center has sufficient resources to meet the investigating officers’
                needs. Moreover, several investigating officers told us that they were
                unaware of the resources available to them from the Center.

                         Investigating Officers Need More Training in Their
                         Prosecutorial Role

                         The initial orientation and formal training for investigating officers
                         consists of an approximately 3-week course that not all
                         investigating officers complete before they begin representing the
                         Coast Guard in S&R proceedings. An investigating officer told us
                         that it was common for new investigating officers to begin
                         handling S&R matters before they attended the formal orientation
                         and training program. As a result, the Coast Guard relies on on-
                         the-job training to prepare some investigating officers. The
                         content and quality of this training varies from district to district,
                         which could cause the Coast Guard’s S&R program to be enforced
                         inconsistently. In addition, there are few advanced training
                         courses in S&R litigation skills for senior or more experienced
                         investigating officers seeking to refine or refresh their skills.

                         Investigating Officers Should Have Access to Additional Legal
                         Support

                         Most investigating officers are not licensed attorneys and thus
                         cannot be expected to handle all legal issues that arise. Even with
                         sufficient training in S&R proceedings, investigating officers may
                         not be able to represent the Coast Guard at S&R hearings
                         effectively, enter evidence into the record competently, and argue
                         points of law correctly or persuasively in every case. For the
                         purposes of its marine safety operations, the Coast Guard divides
                         the country into nine geographic districts. These districts are
                         further divided into sectors, which are further divided into smaller
                         geographic areas under the jurisdiction of marine safety units.
                         S&R matters are prosecuted by the investigating officers at the
                         marine safety units. However, legal support for these matters is
                         only available at the district level. While investigating officers
                         have access to the Coast Guard’s attorneys, these attorneys are
                         often too far removed from the investigating officers, both
                         geographically and in the Coast Guard hierarchy. Thus, the
                         investigating officers may not always seek attorney assistance,
                         either because they are not aware of when to ask for legal support
                         or because they do not feel comfortable seeking assistance outside
                         of their chain of command. In addition, S&R proceedings

Recommendations to Improve the Coast Guard’s System for Adjudicating Suspension and Revocation Matters

                                              Page 13
                         represent a small percentage of the Coast Guard attorneys’
                         responsibilities, both on the district level and in headquarters.
                         Therefore, attorneys may not always be able to give investigating
                         officers the assistance they need, particularly in cases involving
                         complex factual or legal issues or in which the mariner is
                         represented by counsel.

                         Although the Center is designed, in part, to provide additional legal
                         support to the investigating officers, the officers told us they were
                         not aware of the resources available to them through the Center.
                         The Coast Guard should make better use of the Center to provide
                         investigating officers additional legal support. With sufficient
                         available staff, the Center could help ensure that investigating
                         officers interpret Coast Guard law and policy and implement the
                         S&R program consistently throughout the Nation. It could also
                         help meet some of the investigating officers’ training needs. The
                         Center could generate training materials, such as manuals and
                         courses, to ensure that investigating officers nationwide have
                         access to uniform and consistent guidance and legal advice.

                         The Coast Guard’s sectors and marine safety units should
                         encourage investigating officers to interact with the Center as
                         needed, and the Center should initiate communication with the
                         senior investigating officers in each district to assess the legal
                         needs of the investigating officers. It should work to meet those
                         needs and increase its staff as necessary to provide effective
                         support.

                         The Coast Guard rotates investigating officers out of the S&R
                         program every few years, just as they are gaining the expertise to
                         represent the Coast Guard effectively at S&R hearings. Although
                         we have not fully studied the effect of the loss of qualified
                         investigating officers on S&R proceedings, this issue warrants
                         attention.

                         Recommendations
                         We recommend that the Commandant instruct the Office of
                         Investigations and Analysis to:

                         Recommendation 6: Administer a formal orientation and training
                         course that investigating officers complete before handling S&R
                         cases.




Recommendations to Improve the Coast Guard’s System for Adjudicating Suspension and Revocation Matters


                                              Page 14

                         Recommendation 7: Make available or require, if necessary,
                         ongoing or advanced skills training for investigating officers who
                         seek or need to improve their prosecutorial skills.

                         Recommendation 8: Promote the use of the Center of Expertise
                         to ensure that investigating officers have access to training and
                         legal support.


                         Management Comments and OIG Analysis
                         USCG’s Comments to Recommendation 6:

                         The Coast Guard concurred with the recommendation. It plans to
                         modify its policy to ensure investigating officers that present cases
                         before an ALJ have completed the S&R Hearing Personnel
                         Qualification Standard (which requires attendance of the existing
                         S&R course), or are directly assisted by an investigating officer
                         with such qualification who is sitting second chair at the S&R
                         hearing.

                         OIG Analysis:

                         We concur with the Coast Guard’s response. In its action plan, the
                         Coast Guard should update the OIG on the implementation of this
                         policy.

                         This recommendation is Resolved – Open.


                         USCG’s Comments to Recommendation 7:

                         The Coast Guard concurred with the recommendation. The Office
                         of Investigations & Casualty Analysis will work with the S&R
                         National Center of Excellence to assess needs of the program. The
                         Coast Guard expects to complete this assessment in 24 months.
                         The Marine Investigations program is in the last year of a multi­
                         year effort to add civilian and military billets to ensure that there
                         are enough investigating officers in the field to handle the
                         workload. Until this is complete, the Coast Guard is focusing on
                         providing basic training to the officers. The S&R National Center
                         of Excellence is almost fully operational and will provide the
                         specialized expertise for complex cases.

                         OIG Analysis:


Recommendations to Improve the Coast Guard’s System for Adjudicating Suspension and Revocation Matters

                                              Page 15
                         We concur with the Coast Guard’s response. In its action plan and
                         subsequent updates, the Coast Guard should keep the OIG apprised
                         of the status of its assessment of the Marine Investigations
                         program.

                         This recommendation is Resolved – Open.

                         USCG’s Comments to Recommendation 8:

                         The Coast Guard concurred with the recommendation. It noted
                         that the Center is now fully functioning and assisting investigating
                         officers with S&R proceedings. The staff is well-versed in the
                         laws, regulations and Coast Guard policy which govern the S&R
                         process and administrative hearing proceedings. More
                         importantly, they are a dedicated resource to assist Investigating
                         Officers with the S&R process and administrative hearing
                         procedures. There are currently four members on staff at the
                         Center, including one attorney and they are in the process of
                         bringing on three additional staff (to include an additional
                         attorney). To ensure investigating officers are aware of this
                         resource, the Office of Investigations & Analysis has published
                         multiple announcements regarding the availability and functions of
                         the Center. Center staff present briefings at all investigating
                         officer, S&R and Sector Department Head courses located at the
                         Coast Guard Training Center Yorktown, VA. The staff also
                         provides instruction to investigating officers on the S&R process
                         and hearing procedures during all S&R courses.

                         OIG Analysis:

                         We concur with the Coast Guard’s response.

                         This recommendation is Resolved – Closed.



       The Coast Guard Needs to Issue Commandant Decisions on
       Appeal in a Timely Manner and Make the Decisions More
       Accessible to the Public
                Through CDOAs, the Commandant exercises adjudicative and policy-
                making authority and creates binding precedent for ALJs to follow when
                deciding S&R cases. Because of the important role that CDOAs play in
                S&R proceedings, the Coast Guard needs to issue the decisions in a timely


Recommendations to Improve the Coast Guard’s System for Adjudicating Suspension and Revocation Matters

                                              Page 16
                and accessible manner, such that parties who are not represented by
                counsel can locate Coast Guard case law easily.

                         The Coast Guard Needs to Issue Commandant Decisions on
                         Appeal in a Timely Manner

                         The Commandant exercises considerable adjudicative and policy-
                         making authority with respect to S&R proceedings through
                         CDOAs. Therefore, it is imperative that the Commandant issue
                         these decisions in a timely manner. The timely issuance of
                         CDOAs may prevent an ALJ from repeatedly issuing erroneous
                         decisions based on a single misunderstanding of Coast Guard law
                         and regulations. Timely issuance of CDOAs could ensure that
                         mariners receive consistent interpretations of maritime regulations
                         across all Coast Guard districts, the judicious resolution of disputes
                         affecting their livelihood, and due process under the law.

                         The Commandant has taken up to three years to issue appeals
                         decisions, a fact that could have led to at least one ALJ making the
                         same errors of law repeatedly. Coast Guard officials cited several
                         reasons for the delays, including increased demands on the Coast
                         Guard since September 11, 2001, recent lawsuits affecting the ALJ
                         program and the Office of Maritime and International Law, and
                         other, more pressing matters that often consume the time of the
                         attorneys who handle Coast Guard appeals. The S&R program
                         represents only a small percentage of the Coast Guard’s mission-
                         related activities and, accordingly, only a small part of the duties of
                         the attorneys in the Office of Maritime and International Law and
                         the Office of the Judge Advocate General.

                         The timeliness of the S&R appeals process and CDOAs will not
                         improve without either making them a higher priority or dedicating
                         additional resources to prevent recurring backlogs.

                         Commandant Decisions on Appeal Should Be Readily
                         Accessible to the Public

                         Although the Coast Guard’s S&R proceedings are designed such
                         that the parties do not need the assistance of counsel, as a practical
                         matter, unrepresented mariners cannot easily access CDOAs,
                         which are binding Coast Guard case law. Given the increasing
                         complexity of S&R proceedings and the fact that mariner’s
                         livelihoods are at stake, CDOAs should be readily accessible to the
                         public.



Recommendations to Improve the Coast Guard’s System for Adjudicating Suspension and Revocation Matters


                                              Page 17

                             The CDOAs are accessible through Westlaw, an online legal
                             research service used primarily by attorneys and legal
                             practitioners, and through the Coast Guard’s website,
                             “Homeport.”14 The Coast Guard publishes both ALJ decisions and
                             CDOAs on its website. However, the decisions are organized only
                             by the year of issuance and identified by the respondent’s last
                             name or an assigned number. As a result, to find relevant legal
                             precedent, a respondent must already know the date the decision
                             was issued, its case name, and—because it is not provided on the
                             Coast Guard’s website—the subject matter of the opinion. The
                             Coast Guard’s website does not allow users to search all decisions
                             by topic, keyword, or phrase. The website is ineffectual as a
                             means for providing access to Coast Guard decisions to
                             unrepresented mariners. The Coast Guard should create a publicly
                             available database of ALJ decisions and CDOAs that is organized
                             or searchable by topic or keywords.


                             Recommendations
                             We recommend that the Commandant:

                             Recommendation 9: Take steps to decrease the length of time
                             required to issue CDOAs.

                             Recommendation 10: Create a database of CDOAs and ALJ
                             decisions in which the public can use a topic or key word to locate
                             relevant Coast Guard precedent.


                             Management Comments and OIG Analysis
                             USCG’s Comments to Recommendation 9:

                             The Coast Guard concurred with the recommendation. The Coast
                             Guard noted that in 2007 it had a backlog of 20 cases which took
                             an average of 28 months to resolve. Presently, the Coast Guard
                             has 9 cases, with an average resolution of 16 months. The Coast
                             Guard is working to reduce its inventory and the time required to
                             resolve cases. With the exception of extremely complex and
                             unusual cases, its goal is to process every appeal in 6 months or
                             less.

                             OIG Analysis:
14
     http://homeport.uscg.mil/.

 Recommendations to Improve the Coast Guard’s System for Adjudicating Suspension and Revocation Matters


                                               Page 18

                         We acknowledge the Coast Guard’s progress in reducing the
                         backlog of cases and the time to resolve them. The Coast Guard
                         endeavors to process cases in 6 months—a reasonable goal—but it
                         did not describe in its response what specific steps it has taken or
                         plans to take to decrease the length of time required to issue
                         CDOAs. In its action plan, the Coast Guard should describe how it
                         is working to improve the processing of CDOAs.

                         This recommendation is Resolved – Open.

                         USCG’s Comments to Recommendation 10:

                         The Coast Guard concurred with the recommendation. The Coast
                         Guard continues to explore additional methods to provide the
                         public more meaningful access to CDOA and ALJ decisions,
                         subject to the availability of resources. Currently, the Coast Guard
                         is actively exploring resources and computer technology that is
                         available or required to implement the functionality of key word or
                         topic search of CDOAs and ALJ decisions. Given the multi­
                         faceted legal review process coupled with the complexity of
                         computer technology options available, the Coast Guard expects to
                         implement this recommendation in 24 months (June 2012).

                                OIG Analysis:

                         We concur with the Coast Guard’s response. In its action plan and
                         subsequent updates, the Coast Guard should keep the OIG apprised
                         of its progress in developing the database with this search
                         capability.

                         This recommendation is Resolved – Open.




Recommendations to Improve the Coast Guard’s System for Adjudicating Suspension and Revocation Matters

                                              Page 19
           The Coast Guard Needs to Develop Formal Protocols to Prevent
           Improper Contacts Among Personnel in the ALJ Program, the
           Office of Maritime and International Law, and the Office of
           Investigations and Analysis
                    The APA prohibits certain contacts between agency employees who
                    perform adjudicative functions, such as ALJs, and those who perform
                    either investigating or prosecutorial functions, such as investigating
                    officers. Specifically, “an employee or agent engaged in the performance
                    of investigative or prosecuting functions for an agency in a case may not,
                    in that or a factually related case, participate or advise in the decision,
                    recommended decision, or agency review, except as witness or counsel in
                    public proceedings.”15

                    With regard to its S&R proceedings, the Coast Guard has no formal rules
                    or procedures governing interaction between staff responsible for
                    adjudicative functions i.e., the ALJ program and the appellate staff in the
                    Coast Guard’s Office of Maritime and International Law i.e., and staff
                    responsible for investigating and prosecutorial functions (the Office of
                    Investigations and Analysis). Nor does the Coast Guard have any formal
                    rules concerning contact between the ALJ program and the appellate staff
                    at the Office of Maritime and International Law. As a result, the Coast
                    Guard has no policies to ensure that no improper contacts, i.e., contacts
                    that either violate the APA or create an appearance of impropriety within
                    its S&R adjudication process, take place among personnel in the ALJ
                    program, the Office of Maritime and International Law, and the Office of
                    Investigations and Analysis. Although we are unaware of any intentional
                    improper contact between members of these offices, the absence of formal
                    rules might lead to unintentional improper contacts and allow appearances
                    of impropriety even where none exists.

                    For example, on February 24, 2005, a meeting was held in New Orleans to
                    hear allegations by local investigating officers that an ALJ was engaging
                    in judicial misconduct. In attendance were members of the Chief ALJ’s
                    senior staff, who were charged with investigating the allegations; members
                    of the Office of Investigations and Analysis, including local Coast Guard
                    attorneys and investigating officers, who had cases pending before the
                    ALJ; and an appellate attorney from the Office of Maritime and
                    International Law, who was there, among other reasons, to act as a subject
                    matter expert on S&R rules and procedures. Although the participants
                    agreed not to talk about pending cases by name and to focus merely on the
                    issues, as a practical matter, they knew that they were talking about a
                    particular ALJ and a limited number of cases. The appellate attorney

15
     5 U.S.C. § 554(d).

 Recommendations to Improve the Coast Guard’s System for Adjudicating Suspension and Revocation Matters


                                               Page 20

                might have been able to identify a particular case in the future, had it
                reached the Office of Maritime and International Law on appeal.

                In addition, one of the members of the Chief ALJ’s senior staff reported to
                the ALJ who was the subject of the misconduct allegations about the
                matters discussed at the meeting. This conversation between the senior
                staff member and the ALJ caused the ALJ to believe that the investigating
                officers (1) discussed issues in the ALJ’s pending cases and (2) were
                seeking to have the ALJ disciplined because of her rulings in those cases.
                Formal procedures governing interaction between the Chief ALJ, the
                Office of Investigations and Analysis, and the Office of Maritime and
                International Law likely would have prevented this inadvertent improper
                contact and would have given the ALJ guidance to assess the propriety of
                any such contact.

                In addition, the Office of Maritime and International Law did not have any
                formal procedures or rules that would have prevented the appellate
                attorney from attending the meeting—at which the Office of
                Investigations and Analysis complained about the ALJ’s rulings and
                conduct, but not the merits or names of cases—and from further
                participating in the appeals of the ALJ’s decisions. The attorney’s further
                participation in this ALJ’s decisions on appeal was problematic. The
                Coast Guard asserts that because each CDOA underwent multiple levels of
                review after the attorney’s initial involvement in drafting the decisions,
                her attendance at the meeting had no effect on the outcome of the CDOAs.
                The attorney stated that she did not recognize the matters discussed when
                they appeared before her on appeal, because only general issues were
                discussed at the meeting and no specific cases were identified. Although
                There was no evidence that the appellate attorney’s attendance at the
                meeting changed the outcome of the CDOAs with respect to any
                respondent, the attorney’s participation in drafting the CDOAs, at a
                minimum, created an appearance of impropriety.

                Although not improper, Office of Maritime and International Law also has
                provided training to the Office of Investigations and Analysis.
                Specifically, the appellate attorney who attended the February 24, 2005
                meeting also provided training on S&R procedures to the investigating
                officers as part of a class taught at the Coast Guard Training Center in
                Yorktown, VA. The Coast Guard has since stopped the practice of
                allowing Office of Maritime and International Law attorneys who work on
                CDOAs to train investigating officers at Yorktown.

                However, the Office of Maritime and International Law staff’s dual role as
                experts who provide legal advice to various Coast Guard components and
                appellate attorneys who draft opinions for the Commandant is such that an
                improper contact could occur. For example, without clear guidance to the

Recommendations to Improve the Coast Guard’s System for Adjudicating Suspension and Revocation Matters


                                              Page 21

                contrary, an employee who serves in an investigating or prosecutorial
                function could solicit advice from an Office of Maritime and International
                Law attorney who might eventually be involved on the same matter in an
                adjudicative function. Although CDOAs are a means for the Commandant
                to issue policy and, as such, the Coast Guard may need to involve its
                policy experts in drafting CDOAs, formal rules are needed to prevent
                Office of Maritime and International Law attorneys who serve in this dual
                function from engaging in improper contacts with the Coast Guard’s
                investigating and prosecutorial staff.

                The ALJ program, the Office of Maritime and International Law, and the
                Office of Investigations and Analysis should create formal procedures that
                govern their staff’s interaction with each other with regard to pending
                matters or matters that are likely to be appealed. The procedures should
                address (1) the permissibility of a member of one office providing training
                to another office and (2) the ability of staff in the Office of Investigations
                and Analysis to have contact with either the ALJ program or the appellate
                attorneys at the Office of Maritime and International Law relating to
                matters pending or likely to be pending before either an ALJ or the
                Commandant, respectively.

                In May 2008, in response to a lawsuit in federal district court alleging that
                ex parte contacts took place in conjunction with the February 24, 2005,
                meeting, the Office of Maritime and International Law created and
                implemented “Business Rules for Coast Guard Suspension and Revocation
                and Civil Penalty Appeal Programs.” The goal of the rules is “to
                maximize the ability of appeal opinion drafters and decision makers to
                remain as impartial as possible while ensuring Coast Guard program
                offices are able to seek and receive timely, comprehensive and pertinent
                legal advice.”

                We concur with both the intent and content of the rules. Had they been in
                existence earlier, many of the allegations of the former ALJ would have
                been mitigated. These or related rules should be implemented through
                established Coast Guard procedures to cover all offices involved in the
                adjudication and prosecution of S&R matters and distributed to all
                relevant staff, including but not limited to employees in the Judge
                Advocate General’s Office, the Office of Maritime and International Law,
                the ALJ program, and the Office of Investigation and Analysis. The
                establishment, expansion, and dissemination of the rules would facilitate
                better understanding among the various components of the S&R program
                and provide clear guidance on permitted contacts and interactions.




Recommendations to Improve the Coast Guard’s System for Adjudicating Suspension and Revocation Matters


                                              Page 22

                         Recommendations
                         We recommend that the Commandant:

                         Recommendation 11: Develop formal procedures governing
                         interaction between personnel in the ALJ program, the Judge
                         Advocate General’s Office, and the Office of Investigations and
                         Analysis. The procedures should address (1) training provided by
                         one office to another office; (2) the ability of investigators,
                         attorneys, and staff involved in the investigation and prosecution of
                         S&R matters to contact the ALJ program and the Office of
                         Maritime and International Law; and (3) the ability of the ALJ
                         Program and the Judge Advocate General’s Office to communicate
                         about appropriate issues of concern to each office.


                         Management Comments and OIG Analysis
                         USCG’s Comments to Recommendation 11:

                         The Coast Guard concurred with the recommendation. In its
                         response, the Coast Guard stated it believes that the Office of
                         Maritime and International Law's business rules put in place in
                         May 2008 address much of this concern and will prevent situations
                         that would create any appearance of impropriety. However, the
                         Coast Guard intends to pursue transferring the function of drafting
                         CDOAs from the Office of Maritime and International Law to
                         another, neutral office with little or no responsibilities in advising
                         the S & R program. We expect this transfer of responsibility to
                         occur within 12 months.

                         OIG Analysis:

                         We support the Coast Guard’s plans to transfer the responsibility
                         of drafting CDOAs from the Office of Maritime and International
                         Law. However, we do not concur that the Business Rules, as
                         constituted, sufficiently address our recommendation. Our
                         recommendation seeks more formal, binding guidelines that affect
                         the Office of Maritime and International Law, the S&R program,
                         and the ALJ program and specifically prescribe their respective
                         roles and their ability to share information.

                         The Business Rules provide a good foundation for the Office of the
                         Judge Advocate General and, consistent with the law, they attempt

Recommendations to Improve the Coast Guard’s System for Adjudicating Suspension and Revocation Matters


                                              Page 23

                         to prohibit discussions about active cases. For example, Rule 2
                         prohibits discussions about active cases and facts. Rule 3 prohibits
                         covered attorneys from providing guidance to the Staff Judge
                         Advocate, field level attorneys and program staff with regard to a
                         specific case. Rule 5 attempts to limit contact with ALJs to avoid
                         the appearance of impropriety.

                         However, the Business Rules do not apply to all offices involved in
                         the adjudication and prosecution of S&R matters. The Business
                         Rules state that they are “best practices” and are applicable solely
                         to the Office of Maritime and International Law. They do not
                         serve to address any of the three criteria we explicitly mentioned in
                         the recommendation related to training, the ability to contact the
                         ALJ program, and the ALJ program and the Judge Advocate
                         General’s Office ability to communicate about appropriate issues
                         of concern to each office.

                         Although everyone has an obligation to avoid impropriety and ex
                         parte contacts, a more formal and carefully crafted policy could
                         prevent larger problems.

                         This recommendation is Unresolved – Open.




Recommendations to Improve the Coast Guard’s System for Adjudicating Suspension and Revocation Matters


                                              Page 24

Appendix A
Purpose, Scope, and Methodology


                         Our review of allegations by a former Coast Guard ALJ resulted in
                         two reports. Our first report, Allegations of Misconduct Within the
                         Coast Guard Administrative Law Judge Program, OIG-10-108,
                         addressed the merits of the allegations and did not contain any
                         recommendations. During the course of that review, we reviewed
                         the ALJ program and the Coast Guard’s S&R administrative
                         proceedings, and noted issues not directly related to the allegations
                         that warranted management’s attention. This report makes
                         recommendations to address those issues and improve the
                         effectiveness, integrity, and efficiency of both the program and
                         S&R administrative proceedings.

                         We evaluated the ALJ program’s methods and procedures and
                         certain aspects of how the Coast Guard prosecutes S&R matters
                         and handles appeals to the Commandant. We reviewed many
                         CDOAs, including all CDOAs on the former ALJ’s cases. We also
                         reviewed documents, case law, email messages, internal
                         memoranda, and other documents. We interviewed current and
                         former ALJs, ALJ program staff, and a number of Coast Guard
                         personnel who were involved in the S&R administrative process.
                         We also spoke with members of the mariner community and
                         related legal practitioners. Those conversations and our review of
                         documents enabled us to understand aspects of the Coast Guard’s
                         S&R administrative proceedings and supplied a context in which
                         to make recommendations for its improvement. However, we did
                         not conduct a full inspection of the S&R adjudication system or
                         evaluate its overall performance.

                         We acknowledge that each sector is composed of unique
                         demographics and mariner communities, and that some S&R
                         programmatic policies and procedures affect sectors differently.
                         Because this report grew out of our review of the former ALJ’s
                         allegations, our scope was limited. We focused much of our
                         attention on evidence derived from Sector New Orleans and the
                         Marine Safety Unit in Morgan City, Louisiana. Sector New
                         Orleans processes more S&R matters than any other region. Our
                         recommendations are intended to enhance the Coast Guard’s
                         system for adjudicating S&R matters regardless of location.

                         We conducted fieldwork from January 2009 to March 2010. We
                         conducted our review under the authority of the Inspector General
                         Act of 1978, as amended, and according to the Quality Standards
                         for Inspections issued by the President’s Council on Integrity and
                         Efficiency.
Recommendations to Improve the Coast Guard’s System for Adjudicating Suspension and Revocation Matters
 


                                               Page 25
 

Appendix A
Purpose, Scope, and Methodology


                         We appreciate the efforts by USCG management and staff who
                         provide the information and access necessary to accomplish this
                         review.




Recommendations to Improve the Coast Guard’s System for Adjudicating Suspension and Revocation Matters
 


                                               Page 26
 

Appendix B
Management Comments to the Draft Report



                                      u.s. ""~'"'
                                      Homerand Security
                                      United States
                                                        00111                                                  1100 S«ondStreet,
                                                                                                               StaffSymbol:co-rn
                                                                                                                                  s.w..
                                                                                                               wOlhinJtnn, DC 20S9)-OOO1
                                                                                                               !'l>I:rIo: (202) l7l·]53]
                                                                                                               Pox: (2Cl2)l7HJIl
                                                                                                                                         5"",1245



                                      COBSt Guard
                                                                                                               7501



                                      MEMORANDUM                           ~
                                                               CAPT~..,.>
                                                                                                               MAY 14 2Dla
                                      From:     T. W.l0NES,                                       Reply to Audit Manager,
                                                COMDT (CO.82)                                     Attn of: Mark Kulwicki
                                                                                                           (202) 372-3533
                                      To:       Carlton I. Mann
                                                Assistant Inspector General for Inspections


                                      Subj:     RESPONSE TO DHS OIG DRAFT REPORT: "RECOMMENDAnONS TO
                                                IMPROVE THE COAST GUARD'S SYSTEM FOR ADJUDICATING SUSPENSION
                                                AND REVOCATION MATTERS"
                                     "Ref:      (a) Department of Homeland Security Inspector General (DHS OlO) Report ofApril 30,
                                                2010
                                                                                                          of
                                     1. This letter transmits Coast Guard's response to the Department Homeland SecuritY
                                     Inspector General (DHS DIG) findings and recorrunendations in reference (a) and describes
                                     progress in implementing the recommendations.

                                     2.     The COBSt Guard concurs with all the recommendations listed in the report.

                                     3. lfyou have any questions, my point ofcontact is Mr. Mark Kulwicki at (202) 372-3533 .

                                                                                      •
                                     Enclosure: (I) USCG Comments




Recommendations to Improve the Coast Guard’s System for Adjudicating Suspension and Revocation Matters
 


                                                   Page 27
 

Appendix B
Management Comments to the Draft Report




                                                          Ui''ITED STATES COAST GUARD RESPONSE
                                                       ON THE DEPARTMENT OF HOMELAND SECURITY
                                                            INSPECTOR GENERAL DRAFT REPORT

                                         TITLE: "Recommendations to Improve the Coast Guard's System for Adjudicating
                                         Suspension and Revocation Matters"

                                         COAST GUARD'S GEi'o'ERAL COl\1MENTS ON DUS OlG FINDINGS;

                                         The Coast Guard concurs with all eleven recommendations to improve the effectiveness,
                                         integrity and efficiency of the Administrative Law Judge (AU) Program and the
                                         Suspension and Revocation (S&R) administrative proceedings. Implementation of the
                                         DHS OIG Recommendations will be a priority and we hope adoption of these
                                         recommendations further ensure public trust in the fairness of the Coast Guard S & R
                                         p~edings.


                                        Some of the recommendations in the report were previously identified by an internal
                                        Working Group and are already in progress. Completed efforts demonstrating decisive
                                        action by the Working Group include: publishing all decision and orders issued by AUs
                                        from 1999 to current on Homeport, publishing all AU guidance documents; establishing
                                        the S & R National Center of Expertise (S & R NCOE); securing alternative locations for
                                        hearings so Coast Guard facilities are not used and Federal courthouse usage is
                                        maximized, establishing a program to make available the use of pro bono and law school
                                        legal assistance programs for mariner representation and implementing electronic filing
                                        for mariners.

                                        The Coast Guard concurs with the recommendations which are aimed at improving the
                                        competency of the investigating Officers that are presenting S&R cases before AUs.
                                        Over the past three years, the Coast Guard has implemented the Marine Safety
                                        Enhancement Plan, which contains elements to improve the competency of the
                                        investigating Officers in the field. Specifically, the plan includes the following elements
                                        to improve the competency and professionalism of investigating Officers appearing
                                        before AUs by:

                                        1. Establishing pre-requisite training requirements for officers that are assigned as an
                                        investigating Officer. While these requirements do not entail legal training in S&R
                                        proceedings, they do ensure that investigating Officers are well-seasoned Marine Safety
                                        professionals who are well-versed in the Marine Safety mission, as well as, the relevant
                                        laws, regulations and Coast Guard policy. By establishing this base of Marine Safety
                                        expertise, the Investigating Officers are better prepared to maintain maritime standards
                                        for competence, conduct and enhancement of safety at sea through the S&R process.

                                        2. Establishing the S&R National Centcr o(Exoer!ise (S&R NCOEl. As the DHS ora
                                        report was being developed, the S&R NCOE was still being stood up. It is now fully
                                        functioning and assisting investigating Officcrs with S&R proceedings. The staff at the
                                        NCOE is well-versed in the Jaws, regulations and Coast Guard poHcy which govern the




Recommendations to Improve the Coast Guard’s System for Adjudicating Suspension and Revocation Matters
 


                                                Page 28
 

Appendix B
Management Comments to the Draft Report




                                         S&R process and administrative hearing proceedings. More importantly, they are a
                                         dedicated resource to assist Investigating Officers with the S&R process and
                                         administrative hearing procedures. There are currently four members on staff at the
                                         NCOE, including one attorney and they are in the process of bringing on three additional
                                         staff (to include an additional attorney). To ensure Investigating Officers are aware of .
                                         this resource: the Office of Investigations & Analysis has published multiple
                                         announcements regarding the availability and functions of the NCOE; staff attends and
                                         presents a brief on NCOE functions at all investigating officer, S&R and Sector
                                         Department Head courses located at the Coast Guard Training Center Yorktown, VA;
                                         and staffprovides instruction to investigating officers on the S&R process and hearing
                                         procedures during all S&R course~.

                                        RECOMMENDAll0NS:
                                        OIG Recommendation Nt: Evaluate current procedures for training AUs and create a
                                        formal training program.

                                        USCG ResPQDse: Concur. Currently, a copy of the AU Process Guide is provided to
                                        all AUs and is posted on the Homeport website (www.Homeoortuscg.mil)thereby
                                        increasing transparency to stakeholders (including the public). The AU Program will
                                        create training aids and checklists that are consistent with Coast Guard statutes,
                                        regulations, Commandant Decisions on Appeal (CDOA) and the Administrative
                                        Procedures Act (APA); all of which will supplement the existing AU Process Guide.
                                        Further, when drafting the training aids, the AU program will refer to the Office of
                                        Management and Budget Final Bulletin for Agency Good Guidance Practices which is
                                        intended to increase the quality and transparency of agency guidance and practices.

                                        The curriculum wiII include generallegai issues arising in administrative law practice an d
                                        maritime law as enforced by the Coast Guard. Specifically, this includes vessel manning
                                        requirements, issuance ofmecchant mariner credentials, vessel operating requirements,
                                        drug and alcohol testing and fundamental navigation rules. We recognize that many of
                                        these areas oflaw are complex and very specialized and many attorneys (even maritime
                                        attorneys) may not have had much exposure to the intricacies of the law and regulations.
                                        Estimated oompletion dale is end ofCY 2010.

                                        OIG Recommendation #2: Develop formal written procedures for investigating
                                        allegations of misconduct'against an AU.

                                        USCG Response: Concur. The AU Program will create fonnal written guidance for the
                                        Chief AU to follow when investigating an AU. The AU Program published procedures
                                        for filing a complaint against an AU on' Homeport (www.Homeoort.uscg.mil) and
                                        follows the Coast Guard's Administrative [nvestigations Manual; both will be considered
                                        when implementing this recommendation. Estimated completion date is spring 2011.

                                        OIG Recommendation #3: Create fonnal guidelines for the Chief AU to follow when
                                        deciding how or whether to discipline an AU.



                                                                                    2




Recommendations to Improve the Coast Guard’s System for Adjudicating Suspension and Revocation Matters
 


                                                Page 29
 

Appendix B
Management Comments to the Draft Report




                                         USCG RespoDse: Concur. It should be noted that other than a minor reprimand or
                                         minimal suspension, the Chief AU does not directly discipline an AU rather can only
                                         recommend a sanction to the MSPB. The degree of discipline (suspension or
                                         tennination) is a matter for MSPB to decide. Therefore, the recommendation of how to
                                         discipline will be decided by the MSPB and our formal guidelines will address ''whether''
                                         an AU should be disciplined. Estimated completion date is spring 201 1.

                                         ole Recommendation #4: Revoke any obsolete policy guidance and consolidate
                                         current policy guidance into a manual.

                                         USCG Response: Concur. This is a partially completed task initiated by the AU
                                         Program in 2008. A majority of obsolete policy docwnents and guidelines were
                                         cancelled in 2009. These remaining policy documents will be updated, consolidated,
                                         cancelled, revoked or replaced using the new method recommended for issuanee of
                                         policy guidance (see recommendation #5 below). Estimated completion date is end of
                                         CY201O.

                                         OIG R~ommendation#5: Develop a standard fonnat for the issuance of policy
                                         guidance that established to what extent an AU is required to follow the guidance.

                                        USCG Response: Concur. The AU program is already in the process of developing a
                                        standard fonnat for issuing of policy guidance to the AUs and staff that is consistent
                                        with OMS Guidance Policy. Estimated completion date is end ofCY 2010.

                                        OIG Recommendation 1M: Administer a formal orientation and training course that
                                        investigating officers complete before handling S&R cases.

                                        USCG Response: Concur. Future Coast Guard policy will be changed to ensure
                                        Investigating Officers that present cases before an AU have completed the S&R Hearing
                                        Personnel Qualification Standard (which requires attendance of the existing S&R course),
                                        or are directly assisted by an Investigating Officer with such qualification who is sitting
                                        second chair al the S&R Hearing.

                                        OIG Recommendation #7: Make available or require, if necessary, ongoing or advanced
                                        skills training for investigating officers who seek or need to improve their prosecutorial
                                        skills.

                                        USCG Response: Concur. The Office of Investigations & Casualty Analysis will
                                        work with the S&R NCOE to assess needs of the program. Expect this assessment to be
                                        completed in twenty-four months, as the Marine Investigations program is currently in
                                        the last year (of a multi-year effort) of adding additional civilian and military billets to
                                        ensure there are enough investigating officers (lOs) in the field to handle the workload.
                                        Until this is complete. the current emphasis is on the basic training of lOs. In the mean
                                        time, the S&R NCOR is transitioning to full operating capacity and will be relied. upon to
                                        provide the specialized expertise for complex cases.




Recommendations to Improve the Coast Guard’s System for Adjudicating Suspension and Revocation Matters
 


                                                Page 30
 

Appendix B
Management Comments to the Draft Report




                                         OIG Recommendation #8: Promote the use of the Center of Expertise to ensure that
                                         investigating officers have access to training and legal support.

                                         USCG Response: Concur. On September 30, 2008, the Coast Guard authorized the
                                         establishment of the S & R NCOE. Promoting and enhancing the use of the S & R
                                         NCOE is an ongoing endeavor.


                                         OIG Recommendation #9: Take steps to decrease the length of time required to issue
                                         CDOAs.

                                          USCG Response: Concur. In 2007 the Coast Guard had a backlog of20 cases with an
                                         average length of time for resolution of2S months. Today we have cut that in half, with
                                         only 9 cases on hand and with an average resolution of 16 months. While significant
                                         progress has been made, we are still working to improve; the ultimate goal being that,
                                         with the exception ofextremely complex and unusual cases, no appeal should take more
                                         than 6 months to process.

                                         OIG Recommendation #10: ~ate a database ofCDOAs and AU decisions in which
                                         the public can use a topic or key word to locate relevant Coast Guard Precedent.

                                         USCG Response: Concur. The Coast Guard continues to explore additional methods t o
                                         provide the public more meaningful access to CDOA and AU decisions, subject to the
                                         availability ofresourees. Currently;the Coast Guard is actively exploring resources and
                                         computer technology that is available or required to implement the functionality of key
                                         word or topic search ofCDOAs and AU decisions. Given the multifaceted legal review
                                         process coupled with the complcxity of computer technology options available, the goal
                                         of completion is approximately twenty-four months.


                                        OIG Recommendation #11: Develop formal procedures governing interaction between
                                        personnel in the AU Program, the Judge Advocate General's Office, and the Office of
                                        Investigation and Analysis. The procedures should address (I) training provided by one
                                        office to another office; (2) the ability of investigators, attorneys, and staff involved in the
                                        investigation and prosecution of S & R matters to contact the AU program and the
                                        Office of Maritime and International Law; and (3) the ability of the AU Program and the
                                        Judge Advocate General's Office to communicate about appropriate issues ofconcern to
                                        each office.

                                        USCG Response: Concur. The Coast Guard believes that the Office of Maritime and
                                        International Law's business rules put in place in May 2008 address much of this concern
                                        and will prevent situations that would create any appearance of impropriety. Howevcr,
                                        the Coast Guard intends to pursue transferring the function ofdrafting CDOAs from the
                                        OffiCe of Maritime International Law to another, neutral office with little or no
                                        responsibilities in advising the S & R program. We expect this transfer of responsibility
                                        to occur within 12 months.


                                                                                      ,




Recommendations to Improve the Coast Guard’s System for Adjudicating Suspension and Revocation Matters
 


                                                Page 31
 

Appendix C
Major Contributors to this Report


                         William J. McCarron, Chief Inspector
                         Kimberley Cox, Inspector
                         Christian Patton, Inspector

                         Richard N. Reback, Counsel to the Inspector General
                         René Rocque Lee, Assistant Counsel
                         Adam Berlin, Assistant Counsel




Recommendations to Improve the Coast Guard’s System for Adjudicating Suspension and Revocation Matters
 


                                               Page 32
 

Appendix D
Report Distribution


                         Department of Homeland Security
                         Secretary
                         Deputy Secretary
                         Chief of Staff
                         Deputy Chief of Staff
                         General Counsel
                         Executive Secretariat
                         Director, GAO/OIG Liaison Office
                         Assistant Secretary for Office of Policy
                         Assistant Secretary for Office of Public Affairs
                         Assistant Secretary for Office of Legislative Affairs
                         Chief Information Officer
                         Chief Information Security Officer
                         USCG Audit Liaison

                         Office of Management and Budget

                         Chief, Homeland Security Branch
                         DHS OIG Budget Examiner

                         Congress

                         Congressional Oversight and Appropriations Committees, as
                         appropriate




Recommendations to Improve the Coast Guard’s System for Adjudicating Suspension and Revocation Matters
 


                                               Page 33
 

ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this report, please call the Office of Inspector General (OIG) at (202) 254-4100,
fax your request to (202) 254-4305, or visit the OIG web site at www.dhs.gov/oig.


OIG HOTLINE

To report alleged fraud, waste, abuse or mismanagement, or any other kind of criminal or noncriminal
misconduct relative to department programs or operations:

• Call our Hotline at 1-800-323-8603;

• Fax the complaint directly to us at (202) 254-4292;

• Email us at DHSOIGHOTLINE@dhs.gov; or

• Write to us at:
       DHS Office of Inspector General/MAIL STOP 2600,
       Attention: Office of Investigations - Hotline,
       245 Murray Drive, SW, Building 410,
       Washington, DC 20528.


The OIG seeks to protect the identity of each writer and caller.
